             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OFTHE INTERIOR


                                                                           Report No. ER-VS-NPS-0007-2011
                                                                                             June 23, 20 II

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Mana

From:         Hannibal M. War
              Assistant Regiona

Subject:      Verification Review of Recommendations for the Evaluation Report, " History
              Collection in Jeopardy at Harpers Ferry Center"
              Report No. Y-EV -NPS-0004-2008, July 2008

        The U.S. Department of the Interior (DOl) Office ofInspector General (OlG) has
completed a verification review of the four recommendations presented in the subject evaluation
report. The objective of the verification was to determine whether the recommendations were
implemented by the National Park Service (NPS) as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. PFM reported to OIG when
each of the four recommendations in the subject report had been addressed and provided
supporting documentation. As a result, the evaluation report effectively closed July 12, 2010.
Based on our verification, we concur that all recommendations are resolved and implemented.

Background

       Our July 2008 evaluation report, "History Collection in Jeopardy at Harpers Ferry
Center" contained four recommendations relating to the inventory and preservation of the
Center's museum collection.

       In a memorandum dated September 11,2008, NPS concurred with all findings and
recommendations in the draft report. NPS also provided a list of actions associated with each
recommendation that had either been taken, were in progress, or had been planned. Based on this
response, we considered all four recommendations resolved but not implemented. On September
24, 2008, we referred the recommendations to PFM for tracking and implementation.

        Subsequently, PFM reported that all recommendations had been implemented
(memorandums dated September 30, 2009; November 23, 2009; and July 12, 20 I 0). The
evaluation report was closed.




                         Office of Audits , Inspections, and Evaluations   I Herndon , VA
Scope and Methodology

        The scope of this review was limited to determining whether NPS took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that NPS officials provided and discussed actions taken relating to each of the
four recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether the
underlying deficiencies that were initially identified have actually been corrected. As a result,
this review was not conducted in accordance with the Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States or the Quality Standards for
Inspections of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

        All four ofOIG's recommendations have been satisfied, as previously indicated by their
closure. In addition, NPS has received funds for fiscal years (FY) 2011, 2012, and 2013 to
address the cataloging backlog for the Harpers Ferry Collection. These funds were made
available as part of the effort to address Department-wide museum collection accountability
problems that surfaced in the OIG follow-on report: "Department of Interior Accountability and
Preservation of Museum Collections" (Audit No. C-IN-MOA-OOI 0-2008).

       Recommendation 1: NPS move, as soon as possible, the Collection artifacts from the
       Anthony Library to a more secure and environmentally sound location.

        The current Director of the Harpers Ferry Center (HFC) confirmed that every item in the
collection was transferred from the Anthony Library to the Willow Springs facility. This move,
previously documented as support for closing the recommendation, was completed by November
2008 and performed in accordance with museum collection conservation standards. Two freeze
cycles were performed to ensure that any pests in the collection-item box-containers were
eliminated prior to the transfer to the Willow Springs facility. According to the Director, this
move was originally envisioned as part of the NPS National Collection Plan (2000).

    Subsequently, American Recovery and Reinvestment Act funds were provided to renovate
the Anthony Library; the final renovation is scheduled for completion this summer. After
reviewing the available documentation and speaking with the Director, we conclude that
Recommendation I has been resolved and implemented.

       Recommendation 2: NPS resolve the security and environmental problems identified at
       the Willow Springs facility.

        The HFC Director confirmed that additional video cameras and cipher locks are in place
and operational. HFC's standard operating procedures now specify the roles and responsibilities
ofNPS officials onsite. Access points that lead to the actual museum collections are protected by
coded cipher locks and research rooms are under video surveillance. The Director stated that all
nitrate films are properly stored in accordance with National Fire Protection Association


                                                2
standards. HFC pioneered the process and procedures that are now part ofNPS policy for
handling archival film materials. HFC also produced a DVD about this process and provided it to
other parks. After reviewing the available documentation and speaking with the Director, we
conclude that Recommendation 2 has been resolved and implemented.

       Recommendation 3: NPS determine the appropriate entity or entities to control the NPS
       History Collection.

       The HFC Director controls the Harpers Ferry Collection. After reviewing the available
documentation and speaking with the Director, we conclude that Recommendation 3 has been
resolved and implemented.

       Recommendation 4: NPS develop a detailed plan, with timelines and staffing levels, for
       documenting and cataloging Collection items. Individuals with appropriate expertise need
       to be involved in the preparation of the plan, and plan implementation needs to be
       monitored.

        The HFC Director provided a copy of a detailed business plan that is now in place; he is
monitoring its implementation. As part of the business plan 's implementation, HFC funded a 4-
year effort to complete the cataloging of its historic photo collection, at a cost of approximately
$220,000. In addition, through an NPS nationwide contract, HFC will receive a total of
approximately $600,000 over a period of3 years (FYs 2011 - 2013) to address the rest of its
museum collection backlog. These efforts will almost fully fund and complete HFC 's inventory
catalog. In addition, the Director stated that he still wants to hire four additional staff members
and plans to do so as soon as funds become available. In the meantime, HFC has made good use
of interns. After reviewing the available documentation and speaking with the Director, we
conclude that Recommendation 4 has been resolved and implemented.

Conclusion

       We informed NPS officials of the results of this review at an exit conference on June 13,
 2011. NPS officials agreed with the results of our review.

cc:    Jonathan Jarvis, Director, National Park Service
       Nancy Thomas, DOl/GAO Liaison, Office of Financial Management
       Vera Washington, Liaison Officer, National Park Services




                                                 3
